 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




FLORIDA MADE SOME PAYMENTS FOR
 PHARMACY ITEMS THAT EXCLUDED
   PROVIDERS HAD PRESCRIBED


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                      Lori S. Pilcher
                                                Regional Inspector General
                                                    for Audit Services

                                                         June 2014
                                                       A-04-11-07024
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY


 The State agency made some payments for pharmacy items that excluded providers had
 prescribed, resulting in overpayments totaling $180,416 ($99,568 Federal share).
 Furthermore, it may have paid up to $2.7 million to providers for pharmacy items
 prescribed by excluded providers because invalid information was included in the
 prescribing provider ID field.

WHY WE DID THIS REVIEW

We chose to review Florida Medicaid payments for pharmacy items because an Office of
Inspector General (OIG) review determined that Centers for Medicare & Medicaid Services
(CMS) did not have edits in place to check the validity of the prescribing provider identifier (ID)
field on the Prescription Drug Event (PDE) record. Specifically, the report (A-14-09-00302)
revealed that, for calendar year (CY) 2007, certain types of drug costs for approximately 228,000
PDE records had invalid prescribing provider IDs totaling approximately $20.6 million.

The objective of our audit was to determine whether the State agency made payments for
pharmacy items that excluded providers had prescribed for CYs 2009 and 2010.

BACKGROUND

The U.S. Department of Health and Human Services, OIG, under Congressional mandate,
established a program to exclude providers affected by various legal authorities contained in
sections 1128 and 1156 of the Social Security Act. Under the exclusions program, Medicare and
Medicaid should not pay for items or services furnished, ordered, or prescribed by an excluded
provider.

In Florida, the Agency for Health Care Administration (State agency) is designated to administer
the Florida Medicaid program. The Medicaid program in Florida made reimbursements for
pharmacy claims totaling approximately $2.3 billion for CYs 2009 and 2010 (audit period).

WHAT WE FOUND

The State agency made some payments for pharmacy items that excluded providers had
prescribed. Specifically, the State agency made payments, totaling $180,416 ($99,568 Federal
share), for pharmacy items that excluded providers had prescribed during the audit period. These
overpayments occurred because the State agency had inadequate policies and procedures to
ensure that no payments were made for pharmacy items excluded providers had prescribed.

In addition, we were unable to test 904,022 pharmacy claims, totaling approximately $28.6
million, to determine whether the State agency made payments for pharmacy items that excluded
providers had prescribed. Furthermore, the State agency determined that, of those pharmacy
claims, 260,220 claims, totaling approximately $2.7 million, had invalid information in the
prescribing provider ID field. This invalid information occurred because the State agency had

Florida Medicaid Payments for Pharmacy Items That Excluded Providers Prescribed (A-04-11-07024)   i
inadequate policies and procedures to ensure that valid prescribing provider IDs were included
on submitted pharmacy claims before it paid them. As a result, the State agency may have paid
up to $2.7 million to providers for pharmacy items that excluded providers had prescribed.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund $99,568 to the Federal Government for the improper Medicaid payments for
        pharmacy items prescribed by excluded providers and

    •   improve policies and procedures to ensure that excluded providers do not receive
        Medicaid payments for pharmacy items they prescribed and that all pharmacy claims
        have valid information in the prescribing provider ID field.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our first
recommendation. Regarding our second recommendation, it stated that it reviewed the issues
surrounding this finding and researched options that it could implement to increase program
integrity over pharmacy claims.




Florida Medicaid Payments for Pharmacy Items That Excluded Providers Prescribed (A-04-11-07024)   ii
                                                     TABLE OF CONTENTS


INTRODUCTION ........................................................................................................................ 1

          Why We Did This Review ............................................................................................... 1

          Objective ........................................................................................................................... 1

          Background ....................................................................................................................... 1
                The Medicaid Program ........................................................................................ 1
                Florida’s Medicaid Program ................................................................................. 1
                Exclusions Program ............................................................................................. 2

          How We Conducted This Review..................................................................................... 2

FINDINGS             ............................................................................................................................... 3

          Improper Payments Made to Providers for Pharmacy Items Prescribed by Excluded
                Providers ............................................................................................................... 4

          Invalid Information in the Prescribing Provider Identifier Field on Some Pharmacy
                 Claims .................................................................................................................... 4

RECOMMENDATIONS .............................................................................................................. 5

STATE AGENCY COMMENTS. ................................................................................................ 5

APPENDIXES

          A: Federal Requirements and Guidance for Excluded Providers .................................... 6

          B: Audit Scope and Methodology.................................................................................... 7

          C: Related Office of Inspector General Reports .............................................................. 9

          D: State Agency Comments. .......................................................................................... 10




Florida Medicaid Payments for Pharmacy Items That Excluded Providers Prescribed (A-04-11-07024)                                                          iii
                                          INTRODUCTION

WHY WE DID THIS REVIEW

We chose to review Florida Medicaid payments for pharmacy items because an Office of
Inspector General (OIG) review determined that Centers for Medicare & Medicaid Services
(CMS) did not have edits in place to check the validity of the prescribing provider identifier (ID)
field on the Prescription Drug Event (PDE) record. Specifically, the report 1 revealed that, for
calendar year (CY) 2007, certain types of drug costs for approximately 228,000 PDE records had
invalid prescribing provider IDs totaling approximately $20.6 million.

OBJECTIVE

Our objective was to determine whether the State agency made payments for pharmacy items
that excluded providers had prescribed for CYs 2009 and 2010.

BACKGROUND

The Medicaid Program

How Is It Administered?

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities and along with the Medicare program represents one of the largest areas of
spending in the Federal Government. In contrast to the Medicare program, both the Federal and
State Governments jointly fund and administer the Medicaid program.

At the Federal level, CMS, an agency within the U.S. Department of Health and Human Services
(HHS), administers the Medicaid program. Each State administers its Medicaid program in
accordance with a CMS-approved State plan. The State plan establishes which services the
Medicaid program will cover. Although the State has considerable flexibility in designing and
operating its Medicaid program, it must comply with applicable Federal requirements.

Florida’s Medicaid Program

Who Administers the Medicaid Program in Florida?

In Florida, the Agency for Health Care Administration (State agency) is responsible for
administering the Medicaid program. The State agency contracts with HP Enterprise Services
(formerly Electronic Data Systems) to maintain its Medicaid Management Information System, a
computerized payment and information reporting system that processes and pays Medicaid
claims. The Medicaid program in Florida made reimbursements for pharmacy items, totaling
approximately $2.3 billion, for the period January 1, 2009, through December 31, 2010.


1
    See report number A-14-09-00302.


Florida Medicaid Payments for Pharmacy Items That Excluded Providers Prescribed (A-04-11-07024)   1
Exclusions Program

HHS, OIG, has the authority to exclude providers from federally funded health care programs
(sections 1128 and 1156 of the Social Security Act). 2 Under the exclusion program, Medicare
and Medicaid should not pay for items or services furnished, ordered, or prescribed by an
excluded provider. The exclusion applies regardless of who submits the claims and applies to all
administrative and management services furnished by the excluded provider.

To administer the exclusion program, OIG maintains a database of all currently excluded parties,
called the List of Excluded Individuals/Entities (LEIE). 3 In addition, CMS maintains a database,
called the Medicare Exclusion Database (MED), to collect and convey information that is used
to help prevent payments to excluded providers for services furnished during the exclusion
period.

The State agency uses the LEIE and the MED to identify which providers OIG has excluded
from the Medicare or Medicaid programs. The State agency conducts periodic searches for
excluded providers by matching names and social security numbers (SSNs), if available, in the
LEIE and MED to the Florida Medicaid provider file. CMS provides the MED files to State
Medicaid agencies every month. The CMS State Medicaid Director Letter #08-003, dated
June 12, 2008, directed States to conduct monthly searches via the LEIE or MED to capture
recent exclusions and reinstatements. See Appendix A for details on the Federal requirements
and guidance to States regarding excluded providers.

OIG also periodically sends exclusion letters to the State agencies identifying providers who
have been excluded from participation in Medicare, Medicaid, and all Federal health care
programs. The letters instruct the State agencies to exclude the providers from participation in
the Medicaid program. The letters identify the applicable sanction authority, as well as the
excluded individual’s name, address, SSN, and date of birth.

HOW WE CONDUCTED THIS REVIEW

For CYs 2009 and 2010 (audit period), the State agency paid almost 41 million pharmacy claims
totaling approximately $2.3 billion. From these pharmacy claims, we removed about 38.6
million claims, totaling approximately $2.2 billion, because of low-dollar thresholds, 4 Medicaid



2
 Some examples of reasons individuals and entities may be excluded are: (1) conviction relating to fraud, patient
abuse, or felony or misdemeanor possession of controlled substances; (2) license revocation or suspension;
(3) failure to supply payment information; (4) default on health education loan or scholarship obligations; or
(4) making false statements or misrepresentation of material facts.
3
 This database, which is available on the OIG Web site (https://oig.hhs.gov/exclusions/exclusions_list.asp), lists
parties that are excluded from participation in Medicare, Medicaid, and all other Federal health care programs.
4
 We removed the claims in which the aggregate amount paid each year for each prescribing provider was less than
$1,000.


Florida Medicaid Payments for Pharmacy Items That Excluded Providers Prescribed (A-04-11-07024)                      2
enhanced benefits not requiring a prescription, 5 or no exact name or similar name matches after
comparing the prescribing provider’s name to the MED. In addition, we identified and separated
from the population 904,022 pharmacy claims, totaling approximately $28.6 million, that had
atypical IDs in the prescribing provider field that did not match either the National Provider
Identification (NPI) table or the Florida license database. 6 From the remaining 1,480,146
pharmacy claims, totaling approximately $131.9 million, 7 we judgmentally selected for review
368,356 claims, which totaled about $45 million.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our scope and methodology, and Appendix C contains related
OIG reports.

                                                   FINDINGS

The State agency made some payments for pharmacy items that excluded providers had
prescribed. Specifically, the State agency made payments, totaling $180,416 ($99,568 Federal
share), for pharmacy items that excluded providers had prescribed during the audit period. These
overpayments occurred because the State agency had inadequate policies and procedures to
ensure that no payments were made for pharmacy items excluded providers had prescribed.

In addition, we were unable to test 904,022 pharmacy claims, totaling approximately $28.6
million, to determine whether the State agency made payments for pharmacy items that excluded
providers had prescribed. Furthermore, the State agency determined that, of those pharmacy
claims, 260,220 claims, totaling approximately $2.7 million, had invalid information in the
prescribing provider ID field. This invalid information occurred because the State agency had
inadequate policies and procedures to ensure that valid prescribing provider IDs were included
on submitted pharmacy claims before it paid them. As a result, the State agency may have paid
up to $2.7 million to providers for items that excluded providers had prescribed.



5
 These are claims under the Medicaid Enhanced Benefits Rewards program. A generic code is used in the
prescribing provider ID field for nonprescription, point-of-sale items purchased at the pharmacy (e.g., an over-the-
counter medicine).
6
 Many of the prescribing provider IDs in the claims data obtained from the State agency lacked information (name,
address, etc.) but fit the pattern of either NPI numbers or Medicaid IDs. Therefore, we compared the NPI and
Medicaid IDs, when possible, with the CMS NPI table and the Florida license database, respectively. This
comparison was one of the procedures we performed to determine the validity of the prescribing provider ID.
7
 Because we are rounding such large figures, the resulting amount pertaining to the remaining 1,480,146 pharmacy
claims may seem greatly understated; however, the actual amount is $131,879,556.


Florida Medicaid Payments for Pharmacy Items That Excluded Providers Prescribed (A-04-11-07024)                        3
IMPROPER PAYMENTS MADE TO PROVIDERS FOR PHARMACY ITEMS
PRESCRIBED BY EXCLUDED PROVIDERS

Federal regulations prohibit payments for items prescribed by providers that have been excluded
from participation in Medicare and Medicaid. However, the State agency made improper
payments to providers for pharmacy items prescribed by excluded providers totaling $180,416
($99,568 Federal share) during the audit period. These overpayments occurred because the State
agency had inadequate policies and procedures to ensure that it did not make payments for
pharmacy items that excluded providers had prescribed.

INVALID INFORMATION IN THE PRESCRIBING PROVIDER IDENTIFIER
FIELD ON SOME PHARMACY CLAIMS

Requiring a valid prescribing provider ID on a pharmacy claim is a valuable program integrity
safeguard. Without this information, it is extremely difficult for the State agency to determine
whether items are being prescribed by providers that have been excluded from the Medicare or
Medicaid programs.

Of the nearly 41 million pharmacy claims that the State agency reimbursed during the audit
period, we were unable to test 904,022 (approximately 2 percent) claims, totaling approximately
$28.6 million, because the information in the prescribing provider ID field either was not
recorded (a blank field) or did not match the NPI table or Florida license database.

We requested that the State agency determine whether the prescribing provider IDs on these
claims were valid because invalid prescribing providers increase the probability of Medicaid
fraud, waste, and abuse. The State agency limited its review to determining whether the
prescribing provider ID was valid and not whether the prescribing providers associated with
those claims had been excluded from the Medicare or Medicaid programs. After conducting its
own review, the State agency concluded that $25.9 million of the $28.6 million in pharmacy
claims that it reviewed included a valid prescribing provider ID. 8 However, it was unable to
determine whether the prescribing provider IDs were valid for 260,220 pharmacy claims totaling
$2.7 million. Therefore, the State agency could not properly monitor, detect, prevent, or control
fraud, waste, and abuse for these claims.

The State agency had some policies and procedures to identify excluded providers, which
included conducting a search of the LEIE. In addition, the State identified excluded providers
when it received a letter from OIG notifying it when a provider had been excluded from
participation in Medicare and Medicaid. However, during our audit period, the State agency did
not have sufficient prepayment controls in place to ensure that, before paying a pharmacy claim,
it verified that a valid prescribing provider ID was on the claim. As a result of the State agency’s
insufficient review of the information in the prescribing provider ID field, it may have paid up to
$2.7 million to providers for pharmacy items that excluded providers had prescribed.


8
 Because the State agency required so much time to conduct its review, we were unable to verify whether the
prescribing providers had been excluded.


Florida Medicaid Payments for Pharmacy Items That Excluded Providers Prescribed (A-04-11-07024)               4
                                      RECOMMENDATIONS

We recommend that the State agency:

    •   refund $99,568 to the Federal Government for improper Medicaid payments for
        pharmacy items prescribed by excluded providers and

    •   improve policies and procedures to ensure that excluded providers do not receive
        Medicaid payments for pharmacy items they prescribe and that all pharmacy claims have
        valid information in the prescribing provider ID field.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our first
recommendation. Regarding our second recommendation, it stated that it reviewed the issues
surrounding this finding and researched options that it could implement to increase program
integrity over pharmacy claims.

The State agency comments are included in their entirety as Appendix D.




Florida Medicaid Payments for Pharmacy Items That Excluded Providers Prescribed (A-04-11-07024)   5
             APPENDIX A: FEDERAL REQUIREMENTS AND GUIDANCE FOR
                             EXCLUDED PROVIDERS

“Exclusion means that items and services furnished, ordered or prescribed by a specified
individual or entity will not be reimbursed under Medicare, Medicaid and all other Federal health
care programs until the individual or entity is reinstated by the OIG” (42 CFR § 1001.2).

With respect to these reimbursements, or payments, § 1002.211 (a) states:

        [N]o payment may be made by the State agency for any item or service furnished
        on or after the effective date specified in the notice by an excluded individual or
        entity, or at the medical direction or on the prescription of a physician who is
        excluded when a person furnishing such item or service knew, or had reason to
        know, of the exclusion.

CMS’s State Medicaid Director Letter #09-001, dated January 16, 2009, clarifies Federal
statutory and regulatory prohibitions regarding Medicaid payments for any items or services
furnished or ordered by providers that have been excluded from participation in Federal health
care programs.

Furthermore, the Exclusions Program on the OIG Web site states that “[n]o program payment
will be made for anything that an excluded person furnishes, orders, or prescribes. This payment
prohibition applies to the excluded person, anyone who employs or contracts with the excluded
person, any hospital or other provider for which the excluded person provides services, and
anyone else.”




Florida Medicaid Payments for Pharmacy Items That Excluded Providers Prescribed (A-04-11-07024)   6
                          APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

For CYs 2009 and 2010 (audit period), the State agency reimbursed 40,987,134 pharmacy claims
totaling approximately $2.3 billion. From these pharmacy claims, we removed 38,602,966
claims, totaling approximately $2.2 billion, because of low dollar thresholds, 9 Medicaid
enhanced benefits not requiring a prescription, 10 or no exact name or similar name matches after
comparing the prescribing provider’s name to the MED. In addition, we identified and separated
from the population 904,022 pharmacy claims, totaling approximately $28.6 million, that had
atypical IDs in the prescribing provider field that did not match the NPI table or Florida license
database. From the remaining 1,480,146 pharmacy claims, totaling approximately $131.9
million, 11 we judgmentally selected for review 368,356 claims, which totaled about $45 million.

In performing our review, we established reasonable assurance that the claims data were
accurate. We compared the total claims paid data, obtained from the Medicaid Management
Information System from the State agency, to the total claims paid data obtained from the
Medicaid Statistical Information System. We did not, however, assess the completeness of the
Florida paid claims file from which we obtained the data. Furthermore, we did not review the
overall internal control structure of the State agency or the Medicaid or Medicare programs
because our objective did not require us to do so. Instead, we limited our review to the State
agency internal controls that pertained to our objective.

METHODOLOGY

To accomplish our objective, we:

     •   reviewed applicable Federal laws and State guidance;

     •   obtained from the State agency and reviewed written policies and procedures for
         preventing payments for any items furnished, ordered, or prescribed by an excluded
         provider;

     •   obtained from the State agency and reviewed a database of Medicaid pharmacy claims,
         totaling about $2.3 billion, submitted during the audit period;

     •   removed pharmacy claims, totaling about $2.2 billion, due to:

9
 We removed the claims where the aggregate amount paid each year for each prescribing provider was less than
$1,000.
10
  These are claims under the Medicaid Enhanced Benefits Rewards program. A generic code is used in the
prescribing provider ID field for non-prescription point-of-sale items purchased at the pharmacy (i.e., an over-the-
counter medicine).
11
  Due to the rounding of such large figures, the resulting amount pertaining to the remaining 1,480,146 pharmacy
claims may seem greatly understated; however, the actual amount is $131,879,556.


Florida Medicaid Payments for Pharmacy Items That Excluded Providers Prescribed (A-04-11-07024)                        7
             o low dollar thresholds,

             o Medicaid Enhanced Benefits not requiring a prescription, and

             o no exact name or similar name matches after comparing the prescribing
               provider’s name to the MED; 12

     •   identified and separated from the population 904,022 pharmacy claims, totaling
         approximately $28.6 million, that had atypical 13 prescribing provider IDs that did not
         match the NPI table or Florida license database;

     •   requested that the State agency determine whether the prescribing provider IDs from the
         904,022 claims were valid;

     •   analyzed the remaining pharmacy claims that we compared to the MED, reviewed the
         matching results, and judgmentally selected 368,356 claims in which the prescribing
         providers’ names were the same or similar to excluded prescribing providers’ names on
         the MED;

     •   contacted the Florida Department of Health and CMS to obtain SSNs and DOBs for the
         prescribing providers found on the selected claims to determine whether they were the
         same individuals found on the MED;

     •   obtained claim details for selected prescribing providers during the audit period to
         determine whether they were excluded during the time that the services were provided;

     •   calculated the total amount paid for pharmacy items prescribed by excluded providers;
         and

     •   calculated the Federal share of the expenditures using the lowest Federal Medical
         Assistance Percentages (54.98 to 55.45 percent) applicable for each quarter.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

12
  We used the MED in our analysis because it contained unique IDs, such as SSNs or dates of birth (DOBs). We
obtained the MED, as of June 2011, from CMS and compared it to the pharmacy claims using exact name and
similar name matching to determine whether we identified any excluded prescribing providers of pharmacy items.
We removed those claims that did not have exact name or similar name matches after comparing the prescribing
provider’s name to the MED and further analyzed the remaining claims.
13
   For example, some of the information in the prescribing provider ID field was blank; contained identical digits
(i.e. 999999999); or contained numbers, such as tax identification, or Drug Enforcement Agency numbers. We were
unable to match such IDs, because they were not contained within the MED.

Florida Medicaid Payments for Pharmacy Items That Excluded Providers Prescribed (A-04-11-07024)                  8
       APPENDIX C: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

                                                                                                   Date
                      Report Title                                    Report Number               Issued
 Review of Medicaid Excluded Providers in Iowa                        A-07-10-03149               2/2011

 Review of Medicaid Excluded Providers in Missouri                     A-07-10-03153              2/2011

 Oversight of the Prescriber Identifier Field in Prescription          A-14-09-00302              2/2011
 Drug Event Data for Schedule II Drugs




Florida Medicaid Payments for Pharmacy Items That Excluded Providers Prescribed (A-04-11-07024)            9
                         APPENDIX D: STATE AGENCY COMMENTS 





     RICKSCOTI                                                                           ELIZABETH DUDEK
     GOVERNOR                                                                               SECRETARY



                                                   May 27, 2014



 Ms . Lori S. Pilcher
 Regional Inspector General for Audit Services
 Department of Health & Human Services
 Office of Inspector General
 Office of Audit Services, Region IV
 61 Forsyth Street, SW, Suite 3T41
 Atlanta, GA 30303

 Dear Ms. Pilcher:

 Thank you for your letter of April 25, 2014, requesting us to provide comments on the draft
 report number A-04-11-07024 entitled Florida Made Some Payments for Pharmacy Items That
 Excluded Providers Had Prescribed. In accordance with your request, we have emailed you our
 response.

 If you have any questions regarding our response, please contact Mary Beth Sheffield, Audit
 Director, at 850-412-3978.

                                                   Sincerely,




 ED/szg
 Enclosure




  2727 Mahan Drive • Mail Stop #1                                                     Visit AHCA online at
  Tallahassee, FL 32308                                                              AHCA .MyF/orida .com

Florida Medicaid Payments for Pharmacy Items That Excluded Providers Prescribed (A-04-11-07024)         10
                    Agency for Health Care Administration
            Florida Made Some Payments for Pharmacy Items That
                     Excluded Providers Had Prescribed
Response to HHS/OIG Draft Report Number A-04-11-07024 dated April25, 2014

Summary of Findings
The State agency made some payments for pharmacy items that excluded providers had prescribed.
Specifically, the State agency made payments, totaling $180,416 ($99,568 Federal share), for pharmacy
items that excluded providers had prescribed during the audit period. These overpayments occurred
because the State agency had inadequate policies and procedures to ensure that no payments were made
for pharmacy items excluded providers had prescribed.

In addition, we were unable to test 904,022 pharmacy claims, totaling approximately $28.6 million, to
determine whether the State agency made payments for pharmacy items that excluded providers had
prescribed. Furthermore, the State agency determined that, of those pharmacy claims, 260,220 claims,
totaling approximately $2.7 million, had invalid information in the prescribing provider ID field. This invalid
information occurred because the State agency had inadequate policies and procedures to ensure that
valid prescribing provider IDs were included on submitted pharmacy claims before it paid them. As a result,
the State agency may have paid up to $2.7 million to providers for pharmacy items that excluded providers
had prescribed.


Recommendation#1
Refund $99,568 to the Federal Government for the improper Medicaid payments for pharmacy items
prescribed by excluded providers.

Agency Response and Corrective Action Plan:
The Agency concurs. To mitigate future Medicaid Pharmacy payments being made to excluded providers,
the Agency is implementing the actions listed below in the response to Recommendation #2.



Recommendation#2
Improve policies and procedures to ensure that excluded providers do not receive Medicaid payments for
pharmacy items they prescribed and that all pharmacy claims have valid information in the prescribing
provider ID field.

Agency Response and Corrective Action Plan:
The Agency has reviewed the issues surrounding this finding and researched options that can be
implemented to increase program integrity over pharmacy claims.

In 2010, the Agency, in conjunction with its Medicaid fiscal agent, Hewlett Packard Enterprise Services,
LLC, and the Medicaid pharmacy vendor, Magellan, installed new system edits to ensure all pharmacy
claims contain valid data in the prescriber field. Pharmacy claims submitted by prescribers licensed in
Florida are validated against the Florida Department of Health license data file to ensure only practitioners
with valid prescribing licenses are allowed to submit pharmacy claims for processing.

In 2014, the Agency installed an enhancement to the FL MMIS which created the Suspended Prescriber
Table. Any prescriber's license that is prohibited by the Agency from writing prescriptions or from causing
prescriptions to be written or claims to be submitted is loaded into this table. The prohibition may be the
result of several types of adverse actions including exclusion from Medicare or Medicaid. The Suspended
Prescriber License Table is delivered daily to the FL MMIS pharmacy system and is used to deny any
claims containing the suspended prescriber's license.

Beginning in November of 2013 and continuing through 2014, the Agency is overseeing an enhancement
project designed to bring the FL MMIS into compliance with the Affordable Care Act (ACA) Provider
Screening requirements. New interfaces with federal provider screening and eligibility databases are under
construction and are planned for implementation by year's end. Data from the List of Excluded Individuals

                                                  Page 1 of 2

Florida Medicaid Payments for Pharmacy Items That Excluded Providers Prescribed (A-04-1 1-07024)            11
                    Agency for Health Care Administration 

            Florida Made Some Payments for Pharmacy Items That 

                     Excluded Providers Had Prescribed 

Response to HHS/OIG Draft Report Number A-04-11-07024 dated April25, 2014

and Entities (LEIE), Provider Enrollment, Chain and Ownership System (PECOS), National Plan and
Provider Enumeration System (NPPES), Social Security Administration's Death Master File, as well as
Medicare terminations will be loaded to tables in the FL MMIS. All new and renewing applicants will be
compared to the data upon FL Medicaid provider enrollment application. All enrolled providers will be
compared on a daily basis to ensure that no excluded person or entity is enrolled in or paid by Medicaid.

Also, the Agency acknowledges that challenges remain in meeting this audit finding and will continue to
pursue permanent solutions, with the goal of gaining greater oversight and control regarding pharmacy
claims.

    1. 	 FL Medicaid policy currently allows licensed providers practicing in the two border states of
         Alabama and Georgia to enroll in Florida Medicaid.
        For those border providers who hold a practitioner license issued by Florida, the comparison of the
        license on a pharmacy claim with the practitioner license database as described above will ensure
        no unlicensed person is able to submit a claim for payment.
        However, for those border providers who hold a practitioner license issued by Alabama or Georgia,
        there is no comparable validation to ensure that the licenses are unencumbered. The Agency will
        pursue a data sharing agreement with the two Border States with the goal of obtaining access to
        their practitioner license data which would be incorporated into the existing license match coding in
        the pharmacy system.
    2. 	 FL Medicaid policy currently allows unenrolled licensed prescribers to issue prescriptions to
         Medicaid eligible recipients.

        For the unenrolled prescribers, there is no comparison to the national databases to prevent an
        excluded person from successfully submitting a Medicaid pharmacy claim. The comparison to the
        practitioner license database will prevent anyone without a valid license from successfully
        submitting pharmacy claims but it will not guarantee excluded practitioners are not paid for
        pharmacy claims.

        The Agency will investigate possible solutions to eliminate this vulnerability once the full
        implementation of Statewide Medicaid Managed Care is accomplished. If the preferred solution is
        to require the non-Medicaid prescribing practitioners to obtain Medicaid IDs prior to submitting
        pharmacy claims, the Agency will exercise its existing authority for rulemaking to modify Florida
        Administrative Code and, if needed, will pursue additional authority through Legislative action.




                                                 Page 2 of 2


Florida Medicaid Payments for Pharmacy Items That Excluded Providers Prescribed (A-04-11-07024)           12
